No. 19-518

In the Supreme Court of the United States
COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Tenth Circuit
BRIEF OF AMICUS CURIAE COLORADO
REPUBLICAN COMMITTEE IN
SUPPORT OF PETITIONER
JULIAN R. ELLIS, JR.
Counsel of Record
CHRISTOPHER O. MURRAY
BROWNSTEIN HYATT FARBER
SCHRECK, LLP
410 17th Street, Suite 2200
Denver, CO 80202
(303) 223-1100
jellis@bhfs.com
Attorneys for Amicus Curiae

i
QUESTIONS PRESENTED
1. Whether a presidential elector who is prevented by their appointing State from casting an Electoral College ballot that violates state law lacks
standing to sue their appointing State because they
hold no constitutionally protected right to exercise
discretion.
2. Does Article II or the Twelfth Amendment forbid a State from requiring its presidential electors to
follow the State’s popular vote when casting their
Electoral College ballots.

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED .....................................i
TABLE OF CONTENTS .......................................... ii
TABLE OF AUTHORITIES................................... iii
INTEREST OF AMICUS CURIAE ......................... 1
SUMMARY OF THE ARGUMENT ......................... 2
ARGUMENT .............................................................. 5
I.

Political Parties’ Involvement in Selecting
Nominees for Presidential Elector Is
Constitutionally Sanctioned and Ubiquitous. ..... 5
A. States have plenary power over the
appointment of presidential electors. ............ 5
B. Ray v. Blair expressly approved of
pledges to political parties by candidates
for presidential elector. ................................ 14

II. State Political Parties Must Be Allowed to
Enforce Pledges to the Party by Candidates
for Presidential Elector. ..................................... 17
CONCLUSION ......................................................... 22

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Cal. Democratic Party v. Jones,
530 U.S. 567 (2000) ...................... 12–13, 18, 20, 22
Chiafalo v. Washington,
140 S. Ct. 918 (U.S. Jan. 17, 2020)...................... 18
Democratic Party of U.S. v. Wisconsin
ex rel. La Follette,
450 U.S. 107 (1981) ............................................. 12
D. H. Overmyer Co. Inc. v. Frick Co.,
405 U.S. 174 (1972) .............................................. 20
Eu v. S.F. Cty. Democratic Cent. Comm.,
489 U.S. 214 (1989) .......................................... 2, 13
Fitzgerald v. Green,
134 U.S. 377 (1890) ............................................ 6, 7
Gamble v. United States,
139 S. Ct. 1960 (2019) ............................................ 6
In re Guerra,
441 P.3d 807 (Wash. 2019) ............................ 17–18
Kucinich v. Tex. Democratic Party,
563 F.3d 161 (5th Cir. 2009) ................................ 18
Kusper v. Pontikes,
414 U.S. 51 (1973) .................................................. 2
LaRouche v. Fowler,
77 F. Supp. 2d 80 (D.D.C. 1999) .......................... 17
McPherson v. Blacker,
146 U.S. 1 (1892) ................................................ 6, 8

iv
TABLE OF AUTHORITIES (Continued)
Ray v. Blair,
343 U.S. 214 (1952) ...................................... passim
Ray v. Blair,
57 So. 2d 395 (Ala. 1952) ............................... 15, 16
Seay v. Latham,
182 S.W.2d 251 (Tex. 1944) ................................ 17
State v. Albritton,
37 So. 2d 640 (Ala. 1948) ..................................... 15
Tashjian v. Republican Party of Conn.,
479 U.S. 208 (1986) ........................................ 12, 13
Federal Constitutional Provisions
U.S. Const. amend. XII ..................................... passim
U.S. Const. art. II, § 1 ....................................... passim
Colorado Constitutional Provisions
Colo. Const. art. VII, § 1.............................................. 1
Colo. Const. Schedule § 19 ........................................ 11
Colo. Const. Schedule § 20 .................................. 10–11
Statutes
Ala. Code § 17-344 (1940).......................................... 15
Colo. Rev. Stat. § 1-1-104(22) ...................................... 1
Colo. Rev. Stat. § 1-4-301 .......................................... 11
Colo. Rev. Stat. § 1-4-302(1).................................. 1, 11
Colo. Rev. Stat. § 1-4-304(5)........................................ 2
Colo. Rev. Stat. § 1-4-701(1)........................................ 1
Colo. Rev. Stat. § 1-5-403(2)...................................... 11

v
TABLE OF AUTHORITIES (Continued)
Other Authorities
3 J. Story, Commentaries on the Constitution
of the United States (1833)................................... 10
8 Colo. Code Regs. § 1505-1:24.1.1 ........................... 19
Bylaws of the Colo. Republican State Cent.
Comm. art. V, § B.1.n (Sept. 21, 2019) ................ 12
Committee’s Mot. to Intervene,
Baca v. Hickenlooper,
No. 1:16-cv-02986-WYD-NYW (D. Colo.
Dec. 9, 2016), ECF No. 11 .................................... 12
Hugh Alvin Bone, American Politics and the
Party System (1955) ............................................. 14
Joshua D. Hawley, The Transformative
Twelfth Amendment, 55 Wm. & Mary L.
Rev. 1501 (2014) ..................................................... 9
Nat’l Conf. of State Legislatures, The
Electoral College (Jan. 1, 2020) ............................. 9
Tadahisa Kuroda, The Origins of the Twelfth
Amendment: The Electoral College in the
Early Republic, 1787-1804 (1994) ..................... 7, 8
William C. Berman, The Politics of Civil Rights
in the Truman Administration (1970)................. 14
William Rawle, A View of the Constitution of
the United States of America (2d ed. 1829) ......... 10

1
INTEREST OF AMICUS CURIAE1
The Colorado Republican Committee (Committee) is an unincorporated, nonprofit association and a
major political party in Colorado, as defined by Colo.
Rev. Stat. § 1-1-104(22) (2020). The primary purpose
of the Committee is to elect duly nominated or designated Republican candidates to office, to promote the
principles and achieve the objectives of the Republican Party at national and state levels, and to perform the functions required of it under the laws of
the State of Colorado. The Committee is dedicated to
preserving the integrity of elections in Colorado and
safeguarding Coloradans’ fundamental right to vote
for president and vice president of the United States,
see Colo. Const. art. VII, § 1.
Consistent with its duties under state statute,
the Committee is responsible for nominating the Colorado Republican slate of presidential electors each
presidential election year. See Colo. Rev. Stat. § 1-4302(1). The Committee is the only entity under Colorado law licensed to nominate Republican presidential electors, or nominate candidates to fill vacancies
of unexpired terms for Republican presidential electors. § 1-4-701(1).
No matter the political affiliation, once a political
party’s slate of presidential electors are “elected,”
Colorado law mandates each elector to “vote for the
presidential candidate and . . . vice-presidential canAll parties have filed blanket consent for the filing of
amicus briefs. No party’s counsel authored this brief in whole or
in part, and no person or entity other than amicus curiae, its
counsel, or its members made a monetary contribution intended
to fund the brief’s preparation or submission.
1

2
didate who received the highest number of votes at
the preceding general election in this state.” § 1-4304(5). Because selecting candidates and helping
them win public office is “a basic function of a political party,” Kusper v. Pontikes, 414 U.S. 51, 58
(1973)—indeed, a political party has a First Amendment right to promote candidates and to help them
prevail, Eu v. S.F. Cty. Democratic Cent. Comm., 489
U.S. 214, 224 (1989)—the Committee has a direct interest in any decision by the Court further defining
state power over presidential electors.
The Committee supports the Colorado Department of State’s (Department) position in its principal
brief, namely that Article II, section 1 and the
Twelfth Amendment give the State discretion to remove presidential electors who abdicate their state
law obligations by voting inconsistent with the popular vote of the Colorado electorate. The Committee’s
brief, however, focuses on state political parties’ role
under Colorado law in nominating candidates for
presidential electors. In doing so, the Committee offers its unique voice on issues principal to the case,
including the selection of candidates for presidential
elector and the available mechanisms to enforce
pledges made by elector candidates. The Committee
thus intends to sharpen any decision encroaching on
the selection of nominees for presidential electors
and the mechanisms by which state political parties
may ensure accountability.
SUMMARY OF THE ARGUMENT
At its core, this case is about whether the State
of Colorado may bind its presidential electors to the
vote of the people of Colorado. While the Electoral
College has existed since the founding, few decisions

3
have examined the constitutional underpinnings of
the College. Nonetheless, the Court’s decisions that
have studied the text, history, and structure of Article II, section 1 of the Constitution and the Twelfth
Amendment have uniformly compartmentalized the
functions of the applicable government actors (the
states, presidential electors, and federal government)
and defined the job of electors as a narrow one. In
keeping with those decisions and the text of the Constitution, a state must have the power to bind its
presidential electors to the will of its people, as most
states have done for nearly two hundred years.
I. This amicus brief addresses state political parties’ involvement in the selection of presidential electors and how a decision for Mr. Baca will compel
state political parties to respond.
A. It is beyond dispute that states have plenary
power in the “appointment” of presidential electors.
Since the first presidential election, states have exercised that power to fashion different modes by which
to select presidential electors, from appointment by
state legislatures, to popular vote by the state or districts, to forms of elector-specific committees. Today,
however, all presidential electors are elected by popular vote in the states. Although the mode of selection has changed throughout history, the involvement of political parties has remained constant.
Many states, like Colorado, delegate to state political
parties the authority to nominate and fill slates of
presidential electors. Indeed, each presidential election year, the Committee’s chairman selects and
nominates the Republican slate of presidential electors for the Colorado Republican Party. In exercising
its associational legitimacy to select nominees, the

4
Committee necessarily invokes its right to exclude
unfit candidates—a right the Court has said is most
sacred to political associations.
B. It is for this reason the Court in Ray v. Blair,
343 U.S. 214 (1952), blessed the Alabama Democratic
Party’s exclusion of a candidate for presidential elector when he refused to pledge aid and support to the
nominees of the national Democratic Party. Like
Colorado, Alabama had delegated the task of nominating presidential electors to state political parties.
The Court found no federal constitutional objection
when a party chooses to fix the qualifications for
elector candidates to guard against intrusion by
those with adverse political principles. And, the
Court stressed it is the party’s affirmative constitutional right to do so as a voluntary association. Thus,
the Court rejected the idea that Article II, section 1
and the Twelfth Amendment demand absolute freedom for the elector to vote his or her own choice.
II. Accordingly, based on Ray, there is no legal
objection to the Committee requiring a pledge by
candidates for presidential elector prior to nomination. Even more, the Committee must be allowed to
enforce such a pledge against a faithless elector if
states may not bind electors to the statewide popular
vote. First, a conclusion barring states from imposing
an obligation on presidential electors does not answer whether an elector may voluntarily exercise his
or her will and agree to be legally bound by a pledge
to qualify as a party’s nominee for elector. Second,
failure to recognize state political parties’ right to enforce candidate-pledges would violate the parties’ associational rights. Because Colorado has decided to
use the state political party platform to select nomi-

5
nees for presidential elector, the exercise of a party’s
associational legitimacy to nominate a slate of electors for the general election is protected expression,
which necessarily includes enforcing pledges and excluding electors with adverse political principles.
ARGUMENT
I.

Political Parties’ Involvement in Selecting
Nominees for Presidential Elector Is Constitutionally Sanctioned and Ubiquitous.

The constitutional design for choosing the president and the vice president delegates significant control over the process to the several states, including
the mode by which presidential electors are selected.
Although early in the republic states experimented
with different ways to appoint presidential electors,
today electors are uniformly selected by popular vote
in the states. This Part discusses the history of state
power over the “appointment” of presidential electors
and how, since the Nation’s founding, the states have
leaned on political parties to aid in the process. It follows by outlining Colorado law governing the selection of presidential electors, with a particular focus
on Colorado’s state political parties. The Part concludes by reminding of the important associational
rights political parties exercise in nominating partisan slates of presidential electors and examines the
Supreme Court’s express approval of candidatepledges in Ray v. Blair, 343 U.S. 214 (1952), as part
of the nominating process.
A. States have plenary power over the appointment of presidential electors.
1. The Constitution grants states broad power to
appoint presidential electors. Whether that power

6
sanctions state law intended to bind presidential
electors to the will of the state’s voters is a question
of constitutional interpretation. The starting point
then is the Constitution’s text. Gamble v. United
States, 139 S. Ct. 1960, 1965 (2019). Article II, section 1 provides, “Each State shall appoint, in such
Manner as the Legislature thereof may direct, a
Number of Electors, equal to the whole Number of
Senators and Representatives to which the State
may be entitled in the Congress . . . .” U.S. Const.
art. II, § 1, cl. 2 (emphasis added). This Court has
emphasized the breadth of a state’s constitutional
power under Article II, section 1 to “appoint” electors
“in such manner as the Legislature thereof may direct.” In McPherson v. Blacker, the Court said that
the word appoint “was manifestly used as conveying
the broadest power of determination” to the states.
146 U.S. 1, 27 (1892). And the “final result” of delegating unbridled discretion upon the states was by
design; to be sure, it “reconciled contrariety of views”
on other modes of selecting the chief magistrate “by
leaving it to the state legislatures to appoint directly
by joint ballot or concurrent separate action, or
through popular election by districts or by general
ticket, or as otherwise might be directed.” Id. at 28.
From this language and history, the Court concluded
“the practical construction of the clause has conceded
plenary power to the state legislatures in the matter
of the appointment of electors.” Id. at 35.
The Court’s statements in McPherson are in
lockstep with Fitzgerald v. Green, 134 U.S. 377
(1890). There, the Court observed that presidential
electors “are appointed by the state in such manner
as its legislature may direct,” and “Congress has
never undertaken to interfere with the manner of

7
appointing electors, or, where . . . the mode of appointment prescribed by the law of the state is election by the people, to regulate the conduct of such
election, or to punish any fraud in voting for electors.” Id. at 379, 380. Rather, those are within the
exclusive province of the state. It is therefore unsurprising that the Court narrowly defined the federal
government’s and presidential electors’ roles in appointment and voting. The “only rights and duties” of
the former are in the provisions “authoriz[ing] congress to determine the time of choosing the electors,
and the day on which they shall give their votes” and
those “direct[ing] that the certificates of their votes
shall be opened by the president of the senate in the
presence of the two houses of congress, and the votes
shall then be counted.” Id. at 379. And “[t]he sole
function of the presidential electors is to cast, certify,
and transmit the vote of the state for president and
vice-president of the nation.” Id.
2. From the first presidential elections, states
explored their power to appoint presidential electors
by fashioning different nomination and selection
mechanisms. For example, while the presidential
election in 1800 marked its place in history for different reasons, it also exhibited the states’ electoral
ingenuity. That year, Virginia, Maryland, Rhode Island, North Carolina, and Kentucky chose their presidential electors by popular election, two by general
ticket (Virginia and Rhode Island) and the others by
congressional districts. Tadahisa Kuroda, The Origins of the Twelfth Amendment: The Electoral College
in the Early Republic, 1787-1804 at 94–95 (1994). Of
the remaining 11 states, ten chose their electors by
vote of their state legislatures and Vermont delegated the responsibility to a committee including the

8
governor, an executive council, and the state house of
representatives. Id. at 83, 93–94.2
The 1800 election and the constitutional
amendment it precipitated accelerated the electoral
evolution for selecting presidential electors into a
unitary process: election by popular vote. The
Twelfth Amendment, brought about by the electoral
calamity of 1800, provided modest changes to the
process outlined in Article II, section 1. Most significantly, it directed presidential electors that “they
shall name in their ballots the person voted for as
President, and in distinct ballots the person voted for
as Vice-President.” U.S. Const. amend. XII. That is,
the electors voted separately for president and vice
president, eliminating a repeat of a Jefferson-Burr
tie, which caused the House of Representatives to decide the 1800 election after 36 rounds of voting. See
Kuroda, at 105. While the Twelfth Amendment
would eventually facilitate a transformation in the
way the Country selects its president, notably it did
The first, second, and third presidential elections also exhibited the states’ broad discretion in deciding how they would
select their presidential electors, along with the gradual evolution of the electoral process for the appointment of electors. In
the 1788 election, six of the 11 states chose their electors
through vote of their legislatures (but New York lost its right to
vote because it failed to timely appoint its electors), and the remainder chose their electors by popular election, two by general
ticket (Pennsylvania and New Hampshire). McPherson, 146
U.S. at 29–30. In the 1792 election, nine of the 15 states chose
their electors through vote of their legislatures, and the remainder chose their electors by popular election, three by general ticket (Pennsylvania, New Hampshire, and Maryland). Id.
at 30. Finally, in the 1796 election, nine of the 16 states chose
their electors through vote of their legislatures, and the remainder chose their electors by popular election, two by general
ticket (Pennsylvania and New Hampshire). Id. at 31.
2

9
not modify or constrict states’ right to appoint electors under Article II, section 1. This in itself is telling
and reaffirming of the solidarity behind the state’s
plenary power to appoint presidential electors.
The Twelfth Amendment prompted states to rally around election-by-popular-vote for presidential
electors. “Whereas only five states chose their electors by popular vote in 1800, over half did by 1816,
and all but one by 1828.”3 Joshua D. Hawley, The
Transformative Twelfth Amendment, 55 Wm. & Mary
L. Rev. 1501, 1556–57 (2014). In that way, the
Twelfth Amendment also embraced the involvement
of political parties in presidential elections. Hawley,
at 1557. Period-specific commentators remarked on
the certitude and ubiquity of political parties’ influence in early presidential elections, made more efficient and effective by the Twelfth Amendment. In his
Commentaries on the Constitution of the United
States, published only 30 years after ratification of
the Twelfth Amendment, Justice Story recognized:
It is notorious, that the electors are now chosen wholly with reference to particular candidates. . . . The candidates for presidency
are selected and announced in each state
long before the election; and an ardent canvass is maintained in the newspapers, in
party meetings, and in the state legislatures,
to secure votes for the favourite candidate,
and to defeat his opponents. . . . So, that
nothing is left to the electors after their
choice, but to register votes, which are alAt present, all states select presidential electors by popular vote. Nat’l Conf. of State Legislatures, The Electoral College
(Jan. 1, 2020), https://bit.ly/2yl46NZ.
3

10
ready pledged; and an exercise of an independent judgment would be treated, as a political usurpation, dishonourable to the individual, and a fraud upon his constituents.
3 J. Story, Commentaries on the Constitution of the
United States § 1457, 321–22 (1833); William Rawle,
A View of the Constitution of the United States of
America 57 (2d ed. 1829) (stating experience has
shown “the electors do not assemble in their several
states for a free exercise of their own judgment, but
for the purpose of electing the particular candidate
who happened to be preferred by the predominant
political party which has chosen those electors”).
This history teaches that political parties almost
instantly assumed an important function in the election of the president and vice president after the
founding through their coordination efforts and by
coalescing the populace behind candidates for office.
Ray, 343 U.S. at 220–21 (“[Political parties] were
created by necessity, by the need to organize the rapidly increasing population, scattered over our Land,
so as to coordinate efforts to secure needed legislation and oppose that deemed undesirable.”). And the
ability to accomplish such an objective is aided by the
states’ plenary power under Article II, section 1, to
appoint presidential electors as they see fit.
3. Similar to other states, the State of Colorado
elects its presidential electors by statewide popular
vote, which is enshrined in the state constitution. Colo. Const. Schedule § 20 (“The general assembly shall
provide that after [1876] the electors of the electoral

11
college shall be chosen by direct vote of the people.”).4
See also Colo. Rev. Stat. § 1-4-301 (“At the general
election in 1984 and every fourth year thereafter, the
number of presidential electors to which the state is
entitled shall be elected.”). Like for all other
statewide partisan elections in Colorado, statute
grants the major political parties in the state the
right to select—by a method of their choosing—the
nominees for presidential electors. § 1-4-302(1).
Also similar to other states, Colorado does not
print the names of the presidential electors on the
ballot. Rather, Colorado law provides, “When presidential electors are to be elected, their names shall
not be printed on the ballot, but the names of the
candidates of the respective political parties or political organizations for president and vice president of
the United States shall be printed together in pairs
under the title ‘presidential electors.’” Colo. Rev.
Stat. § 1-5-403(2). And a vote for candidates for president and vice president “is a vote for the duly nominated presidential electors of the political party . . .
by which the pair of candidates were named.” Id.
Colorado achieved statehood during the 1876 presidential
election year. The State’s initial slate of presidential electors
was selected by the Colorado general assembly. See Colo. Const.
Schedule § 19 (“The general assembly shall, at their first session, immediately after the organization of the two houses and
after the canvass of the votes for officers of the executive department, and before proceeding to other business, provide by
act or joint resolution for the appointment by said general assembly of electors in the electoral college, and such joint resolution or the bill for such enactment may be passed without being
printed or referred to any committee, or read on more than one
day in either house, and shall take effect immediately after the
concurrence of the two houses therein, and the approval of the
governor thereto shall not be necessary.”).
4

12
For the Committee, it selects the Colorado Republican slate of presidential electors each presidential election year through an authorized committee at
its state assembly and convention. The nominating
committee for presidential electors consists of one
person: the state party chairman, who is appointed
by resolution of the Republican state convention every presidential election year. Cf. Bylaws of the Colo.
Republican State Cent. Comm. art. V, § B.1.n (Sept.
21, 2019), https://bit.ly/39AtJHK (listing as one of the
chairman’s duties “[a]ppointing the Colorado Republican Presidential Electors”). In practice, the chairman considers a number of factors in selecting the
Colorado Republican slate of electors, including time
of service to the party. See Committee’s Mot. to Intervene at 4, Baca v. Hickenlooper, No. 1:16-cv02986-WYD-NYW (D. Colo. Dec. 9, 2016), ECF No.
11. Although raw loyalty to a particular candidate for
president is not a deciding factor in selecting the
slate of electors, id., a decision against the Department would compel the Committee to overhaul candidate qualifications and would also force the Committee to experiment with forms of suasion at the
party level, e.g., candidate-pledges, along with methods of enforcement (see infra Part II).
4. By now, it is settled that the First Amendment
protects the freedom to associate “in furtherance of
common political beliefs,” which includes “the freedom to identify the people who constitute the association,” and the corollary freedom not to associate.
Cal. Democratic Party v. Jones, 530 U.S. 567, 574
(2000) (quoting Tashjian v. Republican Party of
Conn., 479 U.S. 208, 214 (1986) and Democratic Party of U.S. v. Wisconsin ex rel. La Follette, 450 U.S.
107, 122 (1981)). In Jones, the Court said “[i]n no ar-

13
ea is the political association’s right to exclude more
important than in the process of selecting its nominee,” because “it is the nominee who becomes the
party’s ambassador to the general electorate in winning it over to the party’s views.” Id. at 575. For this
reason, the Court’s “cases vigorously affirm the special place the First Amendment reserves for, and the
special protection it accords, the process by which a
political party ‘select[s] a standard bearer who best
represents the party’s ideologies and preferences.’”
Id. (quoting Eu v S.F. Cty. Democratic Cent. Comm.,
489 U.S. 214, 224 (1989)).
The State of Colorado’s use of the state political
party apparatus to field nominees for presidential
elector necessarily depends on the parties’ associational rights under the First Amendment. That is,
when the State requires the Committee to exercise
its associational legitimacy to nominate Republican
presidential electors for the general election, the party’s act must gain protected expression. To be sure,
these First Amendment guarantees are at their zenith when states “limit[] the Party’s associational opportunities at the crucial juncture at which the appeal to common principles may be translated into
concerted action, and hence to political power in the
community.” See Tashjian, 479 U.S. at 216. So it is,
qualifications that state political parties impose on
presidential elector nominees who are selected as the
party’s “standard-bearer who best represents the
party’s ideology and preferences,” Eu, 489 U.S. at
224, protect against insincere political intrusion by
those with adverse political philosophy, a truth the
Court rightly identified in Ray, 343 U.S. at 221–22.

14
B. Ray v. Blair expressly approved of
pledges to political parties by candidates for presidential elector.
To fully appreciate the Court’s decision in Ray v.
Blair, it is necessary to understand the background
of how the case came to be. In the 1948 presidential
election, the then-Democratic Party stronghold of Alabama was the only state in the Union in which the
incumbent Democratic President Harry Truman did
not appear on the ballot. Hugh Alvin Bone, American
Politics and the Party System 262 (1955). Instead,
Alabamans chose between Republican Thomas Dewey and “Dixiecrat” South Carolina Governor Strom
Thurmond. Id. Governor Thurmond had gained notoriety for leading a walkout of southern delegates at
the 1948 Democratic National Convention after that
convention, with President Truman’s support, adopted a pro civil-rights platform.5 Id.
Over the national party’s objection, Governor
Thurmond was placed on the ballot as the Democratic Party nominee in Alabama and handily carried the
state.6 This was a manifest catastrophe for Democratic Party governance. Alabama’s Democratic Governor Jim Folsom unsuccessfully sued his party’s
electors—including one Edmund Blair—in an atGovernor Thurmond intended his third-party bid would
deprive President Truman of enough electoral votes to either
throw the election into the House of Representatives (where
southern Democrats could exact concessions on civil rights in
exchange for their support) or to outright deprive Truman of
another term as president. William C. Berman, The Politics of
Civil Rights in the Truman Administration 132 (1970).
5

Governor Thurmond was also placed on the ballot as the
Democratic Party nominee in Louisiana, Mississippi, and South
Carolina, and he handily carried these states. Berman, at 132.
6

15
tempt to force them to cast their votes for President
Truman. See State v. Albritton, 37 So. 2d 640 (Ala.
1948). In the end, Governor Thurmond received the
votes of Alabama’s 11 presidential electors in 1948.
For the 1952 presidential election, the Alabama
Democratic Party responded by adopting a resolution
requiring all candidates running in its primary to
pledge aid and support to the nominees of the national Democratic Party. Ray, 343 U.S. at 222. This
party-resolution had legal effect. Alabama’s legislature delegated to the state political parties the authority to nominate electors. Id. at 217 n.2. And the
state’s election code authorized the political parties
to “fix and prescribe the political or other qualifications of its own members, and . . . declare and determine who shall be entitled and qualified to vote in
such primary election, or to be candidates therein
. . . .” Id. Alabama’s election code further provided
that the chairman of the party’s executive committee
must certify a candidate’s name to the secretary of
state before he may appear on that party’s primary
ballot, effectively giving the party a veto over any declared candidacy. See Ala. Code § 17-344 (1940).
Mr. Blair, one of the 11 Alabama electors in 1948
who had refused to support and indeed voted against
the national Democratic Party’s nominee, again
sought to be a candidate for presidential elector for
the 1952 presidential election. Ray v. Blair, 57 So. 2d
395, 399 (Ala. 1952) (Brown & Simpson, JJ., dissenting). Alabama’s Democratic Party Chairman Ben
Ray refused to certify Mr. Blair’s name to the primary ballot, thus legally preventing him from becoming
a candidate for elector. See Ray, 343 U.S. at 215, 217
& n.2. Mr. Blair sought and received a writ of man-

16
damus requiring Mr. Ray to certify his name on the
ground that the Twelfth Amendment required he be
free to vote for the candidate of his choice and that
the Democratic Party’s refusal to certify his name to
the ballot absent a pledge of his vote effectively interfered with that choice. Ray, 57 So. 2d. at 397 (majority opinion). In affirming the writ, the Alabama Supreme Court held that the question was whether the
Twelfth Amendment “confers on electors freedom to
exercise their judgment in respect to voting in the
electoral college for a president and vice-president.”
Id. at 397. It held it did. Id. at 398.
This Court reversed and upheld the pledge requirement, rejecting “the argument that the Twelfth
Amendment demands absolute freedom for the elector to vote his own choice.” Ray, 343 U.S. at 228. Importantly, this Court found “no federal constitutional
objection” when a state authorizes a party to choose
its nominees for presidential elector and to “fix the
qualifications for the candidates.” Id. at 231. Indeed,
not only is there no constitutional objection to political parties’ fixing of qualifications for candidates for
presidential elector, parties have an affirmative constitutional right to do so as voluntary associations.
As recognized by this Court in Ray, such activities
“protect[] a party from intrusion by those with adverse political principles.” Id. at 221–22. Illustrating
the propriety of parties acting to protect their associational interests, the Court cited with approval a
Texas case in which the Democratic Party of Texas
withdrew its nomination of candidates for presidential elector—and thereby legally precluded them
from seeking the office—when these candidates announced their intention to vote against President

17
Roosevelt in 1944. See id. at 222 n.9 (citing Seay v.
Latham, 182 S.W.2d 251, 253 (Tex. 1944)).
Since Ray, the Court’s protection of political parties’ associational rights has only strengthened. See
LaRouche v. Fowler, 77 F. Supp. 2d 80, 88–89
(D.D.C. 1999) (examining the Court’s associational
rights cases post Ray), aff’d, 529 U.S. 1035 (2000). At
bottom, political parties must be free to prevent such
intrusion and, as determined by Ray, nothing in the
Twelfth Amendment curbs this freedom in the context of selecting candidates for presidential elector.
II. State Political Parties Must Be Allowed to
Enforce Pledges to the Party by Candidates
for Presidential Elector.
Having approved of candidate-pledges for presidential electors in Ray, the next logical question is
whether those “pledges” have meaning and are enforceable. The Court did not provide a conclusive answer in Ray. See 343 U.S. at 230. It’s worth noting it
has taken nearly 70 years, or 17 presidential election
cycles, for this question (although in a different form
and context) to reach the Court. This is so because
the status quo, namely, that presidential electors adhere to the will of the people expressed in the state
popular vote, has worked. It’s only because a rogue
Colorado elector broke rank in December 2016 with
settled practice and expectations that pledges by
Colorado presidential electors, whether administered
by the State or state political parties, now take on
added significance.7 The remainder of this Part is
The Committee acknowledges Mr. Baca was ostensibly
acting in concert with faithless presidential electors in other
states, such as Washington. See generally In re Guerra, 441
7

18
dedicated to explaining how state political parties
like the Committee might fill the vacuum created by
a decision rejecting state authority to bind presidential electors to the statewide popular vote. In doing
so, it reveals a disconnect in the Electors’ pitch for
unrestrained voting discretion and supports the
State’s view of its plenary power under Article II,
section 1 and the Twelfth Amendment.
The Committee’s associational right to exclude
candidates for presidential electors unfit to represent
the party’s ideologies and preferences is strongest in
its process for selecting nominees. See Jones, 530
U.S. at 575. As the Court recognized in Ray, “certainly neither provision of the Constitution [Article II,
section 1 or the Twelfth Amendment] requires a state
political party . . . to accept persons as candidates
who refuse to agree to abide by the party’s requirement.” 343 U.S. at 225; see also Kucinich v. Tex.
Democratic Party, 563 F.3d 161, 167 (5th Cir. 2009)
(“[U]ntil the Supreme Court modifies Ray, we cannot
hold that a prospective candidate has a right to compel a political party to place him on its ballot when
he refuses to agree to support its candidates.”). Consistent with Ray, state political parties must be able
to exact pledges from candidates vying for their party’s nomination for presidential elector, including a
promise that the candidate will support the national
party’s nominee for president and vice president.
These pledges differ from the State of Colorado’s
pledge8 in several ways. First is for whom the pledgor
P.3d 807 (Wash. 2019), cert. granted sub nom. Chiafalo v. Washington, 140 S. Ct. 918 (U.S. Jan. 17, 2020) (No. 19-465).
That pledge states: “I, [elector’s name], do solemnly swear
or affirm that I will support the constitution of the United
8

19
pledges support, i.e., the winners of the statewide
popular vote versus party nominees. Second, candidate-pledges, by definition, are pledges by candidates
for office rather than elected presidential electors.
Third, and most significantly, is the authority from
which the right to impose a pledge originates. The
State’s right, at least in part, is derived from its power to appoint presidential electors as outlined in Article II, section 1 (see Dep’t’s Br. 28), whereas the
Committee’s right to nominate the Colorado Republican slate of presidential electors is derived from state
statute. Quite critically, as detailed later, the exercise of that delegated authority and the party’s right
to insist on candidate-pledges comes from the Committee’s use of its political legitimacy to nominate
Colorado presidential electors. That is, the constitutional significance is not from Article II, section 1 or
the Twelfth Amendment, but rather the Committee’s
First Amendment associational rights, which are
strongest when nominating candidates.
The Electors hint at this last distinction in their
brief without completing the thought. (See Electors’
Br. 48.) As their argument goes, states may require
moral-suasion pledges, but may not enforce because
“enforcement may be ‘violative of an assumed constitutional freedom of the elector under the Constitution to vote as he [or she] may choose in the electoral
college.’” (Id. (quoting Ray, 343 U.S. at 230).) Setting
aside the liberal use of the quote from Ray, even if a
States and of the state of Colorado, that I will faithfully perform
the duties of the office of presidential elector that I am about to
enter, and that I will vote for the presidential candidate and
vice-presidential candidate who received the highest number of
votes at the preceding general election in this state.” 8 Colo.
Code Regs. § 1505-1:24.1.1.

20
state’s imposition of an obligation to vote consistent
with the statewide popular vote may be constitutionally infirm—because “of an assumed constitutional
freedom of the elector”—it does not follow that a
presidential elector is barred from voluntarily exercising his or her will and agreeing to be legally bound
by pledge in order to qualify as a party’s nominee for
elector. If free choice exists under Article II, section 1
and the Twelfth Amendment, a presidential elector
may waive that freedom through a legally binding
pledge to a state political party in pursuit of that
party’s nomination. Cf. D. H. Overmyer Co. Inc. v.
Frick Co., 405 U.S. 174, 186–87 (1972).
Failure to recognize the enforceability of candidate-pledges required by state political parties would
run roughshod over their associational rights. Stated
differently, if the Court’s decision in Ray, and its later decisions earmarking the importance of political
parties’ associational rights in the nomination process, see, e.g., Jones, 530 U.S. at 575, are to have
meaning, the parties must be permitted to legally enforce pledges given by candidates for presidential
elector (cf. State’s Br. 27 (collecting lower court cases
approving of state enforcement measures)). This conclusion follows from the same reasoning animating
the Court’s approval of candidate-pledges in Ray:
“Such a provision protects a party from intrusion by
those with adverse political principles.” 343 U.S. at
221–22; id. at 226 n.14 (stating pledge strengthens
“party system by protecting the party from a fraudulent invasion by candidates who will not support the
party”). This reasoning extends to the enforceability
of pledges. Indeed, it would be quite perverse to say
that political parties may require pledges to protect
against intrusion from those at odds with the party’s

21
political philosophy and leadership, but handcuff
them in responding to a breach of the pledge. That
result simply cannot follow after Ray.
Hence, at the very least, if the Court holds that
states lack the power to bind electors, state political
parties will be forced to hold electors accountable.
The obvious first step is candidate-pledges. For this
reason, the Committee is actively considering pledges for its 2020 slate of Colorado Republican presidential electors. One option is to require candidates for
presidential electors to pledge to support the national
party’s nominee for president and vice president, to
vote consistent with that pledge, and, if an elector
fails to adhere with his or her pledge, agree to nullify
the vote and immediately vacate the seat as elector.
Further, the candidate-pledge could include a confession of judgment memorializing the pledge, agreeing
it is enforceable, and setting forth a nullification and
vacatur remedy if the pledge is breached. The confession could also contain a waiver of all defenses, including any claim of immunity. (See Electors’ Br. 39.)
Another option is to require candidate-pledges to
be secured by the posting of a bond, and accompanied
by a confession of judgment. The confession would
require a faithless presidential elector to forgo the
bond if he or she breaches the pledge. Although this
scenario would avoid nullification of the elector’s vote
in breach of a candidate-pledge, the bonding requirement in a sufficient amount would operate as a
form of suasion and would signal to the elector the
seriousness of renouncing the electoral duties owed
to the voting populace of the state.
Obviously the options outlined above are not exhaustive, but they do provide a forward-looking ac-

22
count of how state political parties like the Committee will respond to a decision circumscribing state
authority to bind presidential electors to the result of
a statewide popular vote. To be sure, state political
parties will test the bounds of creativity with pledges
and modes of enforcement to safeguard their most
critical constitutional right: the right to associate. As
Justice Scalia reminded in Jones, “Representative
democracy in any populous unit of governance is unimaginable without the ability of citizens to band together in promoting among the electorate candidates
who espouse their political views.” 530 U.S. at 574.
Along the same lines, it would be incomprehensible
for the Committee to silently watch a presidential
elector who exploited the associational guarantees of
the Colorado Republican Party become faithless.
This discussion begs a question: If state political
parties can enforce (in various ways) pledges, whereby a candidate for presidential elector pledges to vote
for the national party’s nominees for president and
vice president, then how is it that state plenary power under Article II, section 1 and the Twelfth
Amendment does not permit states to bind electors to
the people’s vote? It may be the question is begged
because the answer is necessarily that it does.
CONCLUSION
The Tenth Circuit’s decision is irreconcilable
with the broad power states have over the appointment process for presidential electors. Nevertheless,
it is undisputed states have the power to determine
the mode by which presidential electors are to be appointed. And, when a state delegates the selection of
nominees for presidential elector to state political
parties, any exercise of the party’s associational

23
rights to exclude unfit candidates through pledges
must be respected. As detailed above, these candidate-pledges are enforceable, and failure to recognize
their enforceability would do harm to a political party’s right to select the ambassadors who best represent the party’s ideologies and preferences.
Respectfully submitted,
JULIAN R. ELLIS, JR.
Counsel of Record
CHRISTOPHER O. MURRAY
BROWNSTEIN HYATT
FARBER SCHRECK, LLP
410 17th Street, Suite 2200
Denver, CO 80202
(303) 223-1100
jellis@bhfs.com
Attorneys for Amicus Curiae
APRIL 2020

